, FILED,, Clerk of the Supreme Court, 05 Jun 2020, 083037

SUPREME COURT OF NEW JERSEY
M-938 September Term 2019
083037
Judy Thorpe,
Plaintiff-Movant,
v.

ORDER

Justin Swidler, Esq., and
Karpf, Karpf & Virant, PC,
Defendants.

It is ORDERED that the motion for reconsideration and clarification of
the Court’s order denying the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
3rd day of June, 2020.

CLERK OF THE SUPREME COURT

\

SUPREME COURT OF NEW JERSEY
C-102 September Term 2019
083037
Judy Thorpe,
Plaintiff-Petitioner,
v.

FILED
SEP 2 6 2019
^ clerk C/

ORDER

Justin Swidler, Esq., and
Karpf, Karpf & Virant, PC,
Defendants-Respondents.

A petition for certification of the judgment in A-000649-17
having been submitted to this Court, and the Court having considered the
same;
It is ORDERED that the petition for certification is denied.

WITNESS, the Honorable Stuart Rabner, Chief Justice, at Trenton, this
23rd day of September, 2019.
......

CLERK OF THE SUPREME COURT

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
This opinion shall not "constitute precedent or be binding upon any court." Although it is posted on the
internet, this opinion is binding only on the parties in the case and its use in other cases is limited. IL 1:36-3.

SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-0649-17T3
JUDY THORPE,
Plaintiff-Appellant,
v.
JUSTIN SWIDLER, ESQ., and
KARPF, KARPF & VIRANT, PC,
Defendants-Respondents.

Argued March 6, 2019 - Decided May 7, 2019
Before Judges Koblitz, Currier, and Mayer.
On appeal from Superior Court of New Jersey, Law
Division, Mercer County, Docket No. L-0274-17.
Judy Thorpe, appellant, argued the cause pro se.
Stephen T. Bissell argued the cause for respondents
(Rebar Bernstiel, attorneys; Cathleen Kelly Rebar and
Stephen T. Bissell, of counsel and on the brief).
PER CURIAM

Plaintiff Judy Thorpe appeals from the orders denying her leave to file an
amended complaint and the subsequent dismissal of the complaint.

After

reviewing her contentions in light of the record and applicable principles of law,
we affirm.
We provided a thorough recitation of the facts in a prior decision in this
matter, and therefore do not repeat them here. Thorpe v. State Juvenile Justice
Comm’n, Nos. A-0104-11, A-5603-11 (App. Div. June 10, 2015). We include
only a brief background necessary for the reader's comprehension.
Plaintiff began working as a nurse for the New Jersey Juvenile Justice
Commission (JJC) in 2005.

Over the next several years, she filed several

complaints with the Equal Employment Opportunity Office (EEO) of the New
Jersey Department of Law and Public Safety.

The complaints alleged

discrimination based on her age, race, and unlawful retaliation in violation of
the Law Against Discrimination (LAD), N.J.S.A. 10:5-1 to -49; violations of the
Americans with Disabilities Act (ADA), 42 U.S.C. §§ 12101 to 12213; and
sexual harassment. EEO's investigations found the allegations meritless. The
Civil Service Commission affirmed.
In a four-month span, numerous subordinates filed harassment complaints
against plaintiff. The JJC served plaintiff with multiple notices of disciplinary

2

A-0649-17T3

.

V

action, charging her with insubordination and conduct unbecoming a public
employee. When plaintiff refused to comply with the procedures necessary to
return to work following a medical leave, the JJC sought to terminate her for
failure to follow sick leave procedures, insubordination, and "other sufficient
cause."
After a hearing officer sustained the charges, plaintiff was terminated
from her employment in 2008. She appealed, and the arbitrator found the JJC
had just cause to terminate plaintiff. Plaintiff subsequently filed unfair practice
charges against the JJC and her union with the Public Employment Relations
Commission (PERC). PERC determined plaintiffs challenge to the arbitrator's
decision was meritless.
In 2008, plaintiff retained defendants Justin Swidler, Esq. and Karpf,
Karpf & Virant, PC to represent her in a pursuit of her employment
discrimination matter before the New Jersey Superior Court. Defendants filed
a complaint against the JJC and others, alleging violations of the LAD, the
Family Medical Leave Act (FMLA), 29 U.S.C. § 2615 (a)(1), and the
Conscientious Employee Protection Act (CEPA), N.J.S.A. 34:19-1 to -14.
After granting defendants summary judgment, the trial court dismissed
plaintiffs complaint in 2010. In affirming the trial court's order, we stated:

3

A-0649-17T3

In a thorough oral opinion, the [trial] judge found that
all of plaintiffs claims had been unsuccessfully raised
by her in her prior EEO complaints, and her Civil
Service Commission, arbitration, and disciplinary
proceedings. Therefore, the judge held that plaintiff
was collaterally estopped from pursuing these same
allegations in the Law Division. However, the judge
went on to consider the merits of plaintiffs claims and
found that plaintiff failed to establish a prima facie case
of discrimination or retaliation under the LAD, CEPA,
FMLA, or the common law.
[Thorpe, slip op. at 11].
After a de novo review, we agreed that plaintiff failed to establish her
allegations of discrimination or retaliation.

In addition, we found the JJC

"presented overwhelming evidence that all of their actions regarding plaintiff
were based on legitimate business considerations . . . [and] plaintiff failed to
present sufficient evidence to show that [the JJC's] reasons for their employment
actions were a pretext for unlawful discrimination." Id. at 16. We also found
plaintiffs CEPA claims were meritless. Id at 16-17.
The litigation before us arises out of plaintiffs suit against defendants
filed in December 2016. In her complaint, plaintiff alleged multiple causes of
action, including professional negligence regarding defendants' representation
of her in the employment discrimination matter. Defendants moved to dismiss
the complaint, contending the statute of limitations barred plaintiffs claims, and

4

A-0649-17T3

plaintiff was collaterally estopped from asserting a legal malpractice action due
to the myriad of decisions determining her underlying claims were meritless.
At plaintiffs request, defendants' motion was adjourned several times.
Then, two days before the scheduled argument date, and over two months after
the filing of defendants' motion, plaintiff filed a cross-motion seeking leave to
file an amended complaint.
In an oral decision on July 28, 2017, the trial judge first addressed
plaintiffs motion. She determined the legal malpractice claim accrued, "at the
latest, in early 2011 when plaintiff allege [d] she read the transcript of the
summary judgment hearing and discovered

defendants'

[negligence]."

Therefore, the proposed amended complaint filed in July 2017 was untimely
under the six-year statute of limitations.

See N.J.S.A. 2A:14-1.

Because

plaintiffs "proposed amended complaint set[] forth entirely new facts and events
to support her claim," it could not relate back to the original filing date under
Rule 4:9-3. The motion to file an amended complaint was denied.

1 The motion judge described the proposed amended complaint as "entirely
unlike the previous complaint in style and content." In contrast to the original
six-page complaint, the sixteen-page proposed amended complaint contained a
"ten page fact section with multiple subsections replete with allegations never
before seen by the [c]ourt," including over 100 averments.
5

A-0649-17T3

In turning to defendants' dismissal motion under Rule 4:6-2, the judge
noted the original "complaint only contained] factual allegations [of]
professional negligence or legal malpractice." She stated:
Because plaintiffs alleged damages flow from losing an
employment discrimination case, she must ultimately
[prove] that if defendants had not breached their duty
of care, she would have been successful [in] that matter.

Plaintiff could not have prevailed in any of her
The
claims regardless of defendants' actions. . . .
Appellate Division found overwhelming evidence that
plaintiffs employer dismissed her ... for legitimate
business reasons.
As a result, the judge dismissed the complaint with prejudice.2 Subsequent
motions for reconsideration and to vacate the July 21, 2017 orders were denied.
Plaintiff argues on appeal that the trial judge erred in denying her leave to
amend the complaint and in granting defendants' motion for dismissal.

We

disagree.
Although a motion presented under Rule 4:9-1 should be liberally granted,
it nevertheless remains within the court's discretionary purview whether to grant
leave. Kernan v. One Washington Park Urban Renewal Assocs.. 154 N.J. 437,

2 The orders are dated July 21, 2017.
6

A-0649-17T3

456-57 (1998).

If it is clear that the amendment is meritless and cannot

withstand dismissal under a Rule 4:6-2 application, it is not an abuse of
discretion to deny the motion to amend. Notte v. Merchs. Mut. Ins. Co.. 185
N.J. 490, 501 (2006). It is "error to permit an amendment that fails to state a
cause of action on which relief can be granted." Pressler & Verniero, Current
N.J. Court Rules, cmt. 2.2.1 on IC 4:9-1 (2019) (citing Howard v. Univ. of Med.
& Dentistry of N.J.. 172 N.J. 537, 559-60 (2002)).
After receiving defendants' motion for dismissal, plaintiff opposed the
motion and requested several adjournments of the hearing.

More than two

months later, and just two days before the hearing, plaintiff moved for leave to
amend her complaint. As the trial judge noted, the new complaint was "entirely
unlike" the original complaint as it contained new legal theories premised on
new factual allegations.
Plaintiff learned in December 2010 that summary judgment was granted
to the defendants in the employment discrimination action; she stated she read
the transcript of the summary judgment hearing in early 2011. Therefore, the
statute of limitations expired, at the latest, in early 2017. Plaintiff did not move
to amend her complaint until July 2017, after the expiration of the statute of
limitations. The proposed amended complaint contained distinctly new and

7

A-0649-17T3

different claims and factual allegations. Therefore, it could not relate back to
the original complaint filing under Rule 4:9-3. See Young v. Schering Corn.,
275 N.J. Super. 221, 230-31 (App. Div. 1994). We cannot discern an abuse of
discretion in the denial of the motion to amend.
In reviewing a Rule 4:6-2(e) dismissal, we employ the same standard as
that applied by the trial court. Donato v. Moldow, 374 N.J. Super. 475, 483
(App. Div. 2005). Our review is limited to the "legal sufficiency of the facts
alleged in the complaint." Id at 482. (citing Printing Mart-Morristown v. Sharp
Elecs. Corn., 116 N.J. 739, 746 (1989)). We "assume the facts as asserted by
plaintiff are true," and we give the plaintiff "the benefit of all inferences that
may be drawn." Banco Popular N, Am. v. Gandi, 184 N.J. 161, 166 (2005)
(quoting Velantzas v. Colgate-Palmolive Co., 109 N.J. 189, 192 (1988)).
"Where, however, it is clear that the complaint states no basis for relief and that
discovery would not provide one, dismissal of the complaint is appropriate."
Ctv. of Warren v. State, 409 N.J. Super. 495, 503 (App. Div. 2009).
Plaintiffs argument that the trial court erred in dismissing her complaint
lacks sufficient merit to warrant discussion in a written opinion.

R. 2:11-

3(e)(1)(E). We affirm substantially for the reasons expressed by the trial judge
as reflected in her well-reasoned oral opinion of July 28, 2017. This court

8

A-0649-17T3

previously determined that the JJC terminated plaintiff for legitimate business
reasons. As a result, plaintiff could not, and did not, prove essential elements
of her LAD and CEPA claims. Therefore, any allegations of negligence by
defendants are immaterial. Their actions, right or wrong, could not change the
deficiencies in plaintiffs claims. As she could not sustain a cause of action
against defendants, her complaint was rightfully dismissed under Rule 4:6-2.
Affirmed.

I hereby certify that the foregoing
is a true copy of the original on
file in my office.
CLERK OF THE APFSiJaTE DIVISION

9

A-0649-17T3

ll

'J

MERL 000274-17 08/07/2017 Pg 1 of 2 Trans ID: LCV2017101970

PREPARED BY THE COURT
fPERlQR COURT OF NEW JERSEY
LAW DIVISION MERCER COUNTY

JUDY THORPE,
Plaintiff,

mm mi

stwiagi nj>gceet N°-

v.

G<Via DIVISION
CIVIL ACTION
JUSTIN SWIDLER, ESQ.,; KARPF,
KARPF & VIRANT, P.C.; and/or John
ORDER TO AMEND THREE OF JUDGE
Does 1-100, individually, jointly and
WALCOTT-HENDERSON’S ORDER
severally,
DATES FROM JULY 21. 2017 TO JULY
28. 2017 TO REFLECT THE CORRECT
Defendants.
...... DECISION DATE ■....
Attorney for Defendants:
Stewart Benstiel Rebar & Smith
Cathleen Kelly Rebar, Esq.
Stephen Bissell, Esq.
100 Overlook Place, Second Floor
Princeton, N.J. 08540

Plaintiff pro se:
102 Harbor Circle
Freehold, N.J. 07728

THIS MATTER having been brought to the court by way of its own motion to amend the
dates of three orders that were returnable on the court’s electronic system, eCourts, on July 21,
2017, but were not decided on the record until July 28, 2017; and the Honorable Kay WalcottHenderson, J.S.C., having placed decisions on the record on July 28, 2017, denying the two
motions to file amended complaint with jury demand and discovery request filed by Plaintiff, Judy
Thorpe, and granting the motion to dismiss Plaintiffs complaint filed by Cathleen Kelly Rebar,
Esq., attorney for Defendant; and the orders having been inadvertently entered on the court’s
electronic system with the returnable date of July 21, 2017 due to an administrative malfunction*
and this court having a need to change the dates of the three orders to reflect the correct decision
date; and for good cause shown;
IT IS on this day 7th day of August, 2017, HEREBY ORDERED that:

1

MER L 000274-17 08/07/2017 Pg2of2. Trans ID: LCV2017101970

1.. The three orders issued by Judge Walcott-Henderson, denying both motions filed by
Plaintiff to file an amended complaint with jury demand and discovery request and granting
Defendants’ motion to dismiss Plaintiffs complaint with prejudice, shall be amended to reflect the
correct filing date of July 28,2017.

:Q u if
DougldsHurd, P.J.Cv.

2

MERL 000274-17

08/14/2017

Pg 1 of 1 Trans ID: LCV2017116881

This Order Was Prepared and Tiled by the Court
I
l
I
I
l
!
I
I
I
i
I
l

JUDY THORPE
Plaintiff;
VS.

JUSTIN SWIDLER, ESQ., KARPF,
KARPF & VIRANT P.C. and/or JOHN
DOES 1-100
,

' .f

COPY

SUPERIOR COURT OF NEW JERSEY
LAW DIVISION
MERCER COUNTY
DOCKET NO: L-274-17
CIVIL ACTION
ORDER DENYING MOTION TO “FILE
PLAINTIFF’S CROSS-MOTION AND
EXHIBIT Z AS WITHIN TIME”

Defendants.
•■r

..C .

r:-

J;

The Court having considered the moving papers, including Exhibit Z, and the arguments
of the parties, and for good cause shown,
IT IS on this I t^clav of August 2017 ORDERED that Plaintiffs Motion to “File
{

Plaintiffs Cross-Motion and Exhibit Z as within Time” is DENIED. This order shall be deemed
to have taken effect On July 28,2017.
IT IS FURTHER ORDERED that a copy of this Order be served upon all parties of
record within seven (7) days of receipt.
*
• £ j

*;V.*
:

OriihisdaSa, pursuanttoR 1&2
hawebe^isstfoi’pTpri#© isoord.
*

§u_

‘

‘

^V

f.y

AC

BLE KayyWalcot^HendersoivTS.C.

